APPENDIX A
Opinion of the United States Court of Appeals for the Fifth Circuit in
United States v. John Christopher Ferguson,
821 Fed. App’x 380 (5th Cir. 2020)

Case: 19-20639

Document: 00515565717

Page: 1

Date Filed: 09/15/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

September 15, 2020

No. 19-20639
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
John Christopher Ferguson,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:16-CR-34-1
Before Higginbotham, Jones, and Costa, Circuit Judges.
Per Curiam:*
John Christopher Ferguson was convicted of sexual exploitation of
children, receipt of child pornography, access with intent to view child
pornography, and possession of child pornography. He appeals the denial of
his motion to suppress evidence seized in the Southern District of Texas

*

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should
not be published and is not precedent except under the limited circumstances set forth in
5TH CIR. R. 47.5.4.

Case: 19-20639

Document: 00515565717

Page: 2

Date Filed: 09/15/2020

No. 19-20639

pursuant to a network investigative technique (NIT) warrant issued in the
Eastern District of Virginia to identify users of the child pornography website
“Playpen.”

He argues that the NIT warrant violated the Federal

Magistrate’s Act, 28 U.S.C. § 636(a), and former Federal Rule of Criminal
Procedure 41(b) (2015) and was therefore void ab initio and violative of the
Fourth Amendment.

Ferguson further contends that the good-faith

exception to the Fourth Amendment’s exclusionary rule is inapplicable
where law enforcement acted in reckless disregard of Rule 41(b), knowing
that there were jurisdictional restraints on the issuance of the NIT warrant
based on (1) the Department of Justice’s decision to amend Rule 41(b) to
allow for NIT warrants and (2) the refusal of a magistrate judge in the
Southern District of Texas to issue a similar warrant in In re Warrant to Search
a Target Computer at Premises Unknown, 958 F. Supp. 2d. 753, 755 (S.D. Tex.
2013).
In our examination of the district court’s denial of a suppression
motion, we review legal issues de novo and factual findings for clear error,
and we view the evidence in the light most favorable to upholding the ruling.
United States v. Ganzer, 922 F.3d 579, 583 (5th Cir.), cert. denied, 140 S. Ct.
276 (2019); United States v. Jarman, 847 F.3d 259, 264 (5th Cir. 2017);
United States v. Froman, 355 F.3d 882, 888 (5th Cir. 2004). When reviewing
a district court’s denial of a defendant’s motion to suppress which challenges
the sufficiency of a warrant, we first determine whether the good-faith
exception to the exclusionary rule announced in United States v. Leon, 468
U.S. 897 (1984) applies. United States v. Contreras, 905 F.3d 853, 857 (5th
Cir. 2018); Froman, 355 F.3d at 888. If the good faith exception applies, “we
may affirm the district court’s denial of the motion to suppress without
reaching the question of probable cause.” Contreras, 905 F.3d at 857.
In United States v. Ganzer, 922 F.3d 579, 583-590 (5th Cir.), cert.
denied, 140 S. Ct. 276 (2019), we examined the validity of a similar NIT

2

Case: 19-20639

Document: 00515565717

Page: 3

Date Filed: 09/15/2020

No. 19-20639

warrant issued in the Eastern District of Virginia to identify Playpen users
and rejected the same legal challenges Ferguson now raises. In line with our
opinion in Ganzer, we assume without deciding that the magistrate judge who
issued the NIT warrant lacked authority to do so, that a Fourth Amendment
violation occurred as a result of the warrant’s issuance, and that the warrant
was void ab initio. See 922 F.3d at 586. We nevertheless conclude that “the
law enforcement officials involved in the issuance and execution of the NIT
warrant acted with an objectively reasonable good-faith belief that their
conduct was lawful” and, therefore, that the good-faith exception to the
exclusionary rule applies. Id. at 590 (internal quotation marks, brackets, and
citations omitted). Exclusion is inappropriate, and the district court did not
err in denying Ferguson’s motion to suppress with respect to the NIT
warrant. See Contreras, 905 F.3d at 857.
AFFIRMED.

3

